CERTIFICATE OF SERVICE
NO. TBD
William Castro
Petitioner(s)
v.
R. Fred Lewis et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the WILLIAM
CASTRO PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the same
by USPS Priority mail, postage prepaid for delivery to the following addresses:
James Joseph Dean
Messer Caparello, PA
P.O. Box 15579
Tallahassee, FL 32317
(850) 222-0720
Counsel for Thomas Pobjecky

William H. Stafford III
Attorney General's Office
PL-01 The Capitol
Tallahassee, FL 32399-1050
(850) 414-3300
Counsel for the Justices of Florida Supreme Court
(all Respondents except Pobjecky)

Dan Abramovich
December 19, 2019
SCP Tracking: Castro-7754 SW 66 Street-Cover White

